<html>
<title> - EMERGENCY SALVAGE TIMBER SALE PROGRAM PROVISIONS</title>
<body><pre>[Joint House and Senate Hearing, 104 Congress]
[From the U.S. Government Publishing Office]


                                     
                                                         S. HRG. 104-428 (Pt. 2)
 
                               EMERGENCY SALVAGE TIMBER SALE
                                     PROGRAM PROVISIONS
  ______________________________________________________________________________________________   
  
                                       JOINT HEARING
                                                
                                          BEFORE THE   
                                            
                                       SUBCOMMITTEE ON 
                                       
                              FORESTS AND PUBLIC LAND MANAGEMENT    
                                    
                                           OF THE
                                  
                                    SENATE COMMITTEE ON                             
                                                                                                                                                                                                        
                                 ENERGY AND NATURAL RESOURCES   
                                  
                                           AND THE
                                               
                                TASK FORCE ON SALVAGE TIMBER
                                
                                     AND FOREST HEALTH
                                     
                                           OF THE
                                                                             
                                   HOUSE COMMITTEE ON RESOURCES
                                      
                                  ONE HUNDRED FOURTH CONGRESS
                                     
                                        FIRST SESSION
                                          
                                          ON  THE                                                
                                                                                  
                      EMERGENCY SALVAGE TIMBEH SALE PROGRAM PROVISIONS                        
                                          
                                   ______________
                                  
                                  NOVEMBER 29, 1995
                                 _________________
                                      
                                      PART 2
                                                       
                                     
                   

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                              Printed for the use of the
                  Senate Committee on Energy and Natural Resources and
                             the House Committee on Resources
                                        __________




                                U.S. GOVERNMENT PRINTING OFFICE
                               
  23-313 CC                             WASHINGTON : 1996
  _____________________________________________________________________________________
  
                     For sale by the U.S. Government Printing Office
                     
    Superintendent of Documents, Congressional Sales Office, Washington, DC 20402

                                 ISBN 0-16-052571-3
                                 
                                 
                                 
                                 
                                 

 [TEXT NOT AVAILABLE]



</pre></body></html>
